                                                                       Legal Services Corporation
                                                                       Office of Inspector General




                                                    September 30,2003

Ms. Jean A. Lastine
Executive Director
Central Minnesota Legal Services, Inc.
430 First Avenue, North
Suite 359
Minneapolis, MN 55401 - 1780


Dear Ms. Lastine:

      Attached is our audit report on Central Minnesota Legal Services' transfer of
funds and compliance with program integrity standards. Based on your comments on
the draft report, we made some changes to the final report. Your comments are
included in Appendix I.

       Please provide this office a corrective action plan addressing the
recommendations within 30 days. The corrective action plan should include a
description of any action taken or planned to implement the recommendations and the
date corrective action will be completed.

      Copies of this report will be sent to the Chair of Central Minnesota Legal
Services' Board of Directors, LSC management, and will be available to the public via
the OIG's website.

      If you have any questions, please contact Richard Adkins on (202) 295-1661 or
me on (202) 295-1651. 1 appreciate the courtesy and cooperation you and your staff
extended to my staff during the audit.

                                                    Sincerely,



                                                    Leonard J. Koczur
                                                    Acting lnspector General

Enclosure

                                                                      3333 K Street, NW, 3rd Floor
                                                                      Washington, DC 20007-3522
                                                                      Ph: 202.295.1 500 Fax: 202.337.661 6
                                                                      www.oig.lsc.gov
           LEGAL SERVICES CORPORATION
           OFFICE OF INSPECTOR GENERAL




             REVIEW OF GRANTEE'S
              TRANSFER OF FUNDS
           AND COMPLIANCE WITH
        PROGRAM INTEGRITY STANDARDS




                      LSC
Grantee: Central Minnesota Legal Services, Inc.
                  Recipient No. 524020

                   Report No. AU 03-06
                    September 2003
                                      TABLE OF CONTENTS


RESULTS OF AUDIT ...................................................................................................... 1
  Physical Separation.................................................................................................... 1
  Recommendations......................................................................................................3
  Certifications...............................................................................................................3

BACKGROUND..............................................................................................................
                                                                                                                   -4

OBJECTIVES. SCOPE. and METHODOLOGY...............................................................4

SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
 AND THE OIG'S RESPONSE .......................................................................................5

APPENDIX I .Grantee Comments .............................................................................
                                                                                                       I .1

APPENDIX II .OIG Staff Responsible for the Audit and Report.................................. II -1
                              RESULTS OF AUDIT

        The Legal Services Corporation (LSC) Office of Inspector General (OIG)
conducted this audit to determine whether the Central Minnesota Legal Services
(grantee) complied with certain requirements of 45 CFR Part 1610. This
regulation requires grantees to maintain objective integrity from any organization
that engages in activities prohibited by the LSC Act, LSC appropriations acts,
and LSC regulations. To do so, grantees must be legally separate from such
organizations, not transfer LSC funds to them, not subsidize any restricted
activities with LSC funds, and maintain physical and financial separation from
them. An exception applies for transfers of LSC funds solely for private attorney
involvement (PAI) activities.

       The audit provides reasonable, but not absolute, assurance that the
grantee substantially complied with Part 1610 between July 1, 2001 and May 31,
2003, the period covered by our review. In its three offices, the grantee was co-
located with an organization, Mid-Minnesota Legal Assistance, Inc. (MMLA), that
engaged in restricted activities. With one exception, the grantee maintained
separation between the two organizations and adhered to program integrity
standards. In its Minneapolis office, the demarcation between the grantee's
office space and MMLA's office space was not sufficient to meet LSC
requirements for maintaining physical separation.

      In addition, we identified an internal control that needed to be
implemented to meet timekeeping requirements. The grantee did not have a
formal process in place to determine whether part-time advocates needed to
provide certifications concerning their outside activities. During the audit the
Executive Director established a process that will correct this problem.

       We also reviewed a sample of pleadings that had been filed with the
courts. There were no indications that these cases involved restricted or
prohibited activities.

Physical Separation

       In its three offices, the grantee is co-located with Mid-Minnesota Legal
Assistance, lnc. (MMLA), a legally separate organization that provides legal
advice and representation to low-income clients in the same counties served by
the grantee. Because MMLA engages in LSC-restricted activities, the grantee
and MMLA have implemented measures to ensure that the grantee complies with
LSC program integrity regulations. These measures included: maintaining
separate staffs and boards of directors; instilling in both staffs an awareness of
the LSC restrictions; ensuring that shared space and equipment costs are
equitably allocated between the organizations; maintaining independent case
management and accounting systems; and, establishing separate letterhead,
newsletters, logos, and program brochures. However, in its Minneapolis office
the grantee did not maintain sufficient physical separation to clearly differentiate
itself from MMLA.

       LSC program integrity guidance states that while recipients should be
cautious about sharing space and facilities with another organization which
engages in restricted activity, it may be permissable so long as there is
appropriate signage, separate entrances and other forms of identification
distinguishing the two organizations.

       At the grantee's St. Cloud branch office, the physical separation between
the grantee offices and MMLA offices was adequate. However, at the
Minneapolis office, signs and the physical layout of the offices were not adequate
to clearly differentiate to potential LSC clients that the two organizations were
separate. During our audit, we made the following observations at the
                                                  ,


Minneapolis office:

             The building directory at the entrance to the building identifies the
             space occupied by the grantee and MMLA as the same suite
             number.
             The sign on the door to the common waiting area does not
             separately identify the location of the grantee office space.
             Clients are escorted to the grantee office space through a locked
             door from the waiting room, but the sign on the entrance door does
             not identify the name of the grantee organization.
             Grantee offices and MMLA offices are not separate from one
             another. Although the grantee offices are located together along a
             corridor, there is no physical barrier or clear demarcation between
             MMLA offices and grantee offices.

       The grantee needs to alter the physical arrangements to ensure that the
public can differentiate between the grantee and MMLA. The signs in the lobby
directory and door to the waiting area should identify the specific grantee office
numbers. One of the doors to the grantee space (there are 2 entry doors from
the waiting area and a separate unmarked external entrance) should be identified
as the grantee entrance, and grantee clients escorted through this door. Also,
there should be a clear demarcation by a door or some other means to separate
grantee space from MMLA space.
Recommendations

    We recommend that Central Minnesota Legal Services management take the
following steps in its Minneapolis office to provide physical separation from
MMLA:

   1. Clearly distinquish through signs in the office building lobby and entrances
      that the grantee is a separate organization from MMLA.

   2. Establish a clear demarcation between the grantee's office space and
      MMLA's office space through the use of a door or some other means.



Certifications for Part-time Staff

       Five part-time paralegals and attorneys did not provide certifications that
they did not engage in restricted activities while compensated by the grantee.
They included three current part-time employees, one current full-time employee
who was formerly part- time, and one former employee who was part time during
the audit period.

        LSC regulation 45 CFR 1635 and Program Letter 2000-5 require grantees
to obtain certifications from part-time attorneys and paralegals who work for
organizations that engage in restricted activities. Part-time employees are
required to certify at least quarterly that they (1) have not engaged in restricted
activity during any time for which they were compensated by the grantee, and (2)
have not used program resources for restricted activities.

       The Executive Director stated that none of the above-referenced part-time
employees worked for organizations that engaged in restricted activities while
being compensated by the grantee. However, the Executive Director also stated
that she had no documentary evidence to support her conclusion. Consequently,
the Executive Director agreed that obtaining these certifications on a quarterly
basis would provide sufficient documentation. During the audit, the Executive
Director issued a memorandum to all employees establishing a new policy
requiring the quarterly certification for part-time case handlers.

      The OIG did not identify any instances in which an attorney or paralegal
engaged in a restricted activity while compensated by the grantee or used
grantee resources for restricted activities.

        We are not making recommendations for this finding because no
violations of the practice restrictions were found and the Executive Director took
action to preclude future violations of 45 CFR Part 1635.
                                 BACKGROUND

       The Central Minnesota Legal Services (grantee) was established to
provide legal services to indigents who meet applicable eligibility requirements.
This grantee is headquartered in Minneapolis, Minnesota, and maintains two
additional offices in St. Cloud, Minnesota, and Willmar, Minnesota. Staffing at
the time of our audit included 11 attorneys, 4 paralegals, and 5 other employees
who provide administrative support. LSC funding for 2002 and 2003 was $1.385
million and $1.086 million, respectively. Non-LSC funding for 2002 totaled $65.9
thousand for self-representation programs, legal access for battered women in
rural areas, the father law program, and language access services.

      Mid-Minnesota Legal Assistance, Inc. (MMLA) provides legal advice and
representation to low-income clients in the same counties served by the grantee.
MMLA does not receive LSC funding and engages in LSC-restricted activities.


                 OBJECTIVES, SCOPE, AND METHODOLOGY

      The focus of the audit was compliance with requirements established in 45
CFR, Part I 6 10, relating to program integrity standards, including the transfer of
funds to other organizations (non-LSC). The onsite audit field work was
performed from June 16,2003, to June 25,2003.

        The audit covered the period from January 1, 2001, through May 31,
2003.      The OIG reviewed materials pertaining to the grant, including
Certifications of Program Integrity, audited financial statements, grant proposals
and recipient profiles. The OIG also discussed issues pertaining to the grantee
with LSC program and management officials. The OIG performed audit field
work at the headquarters office in Minneapolis as well as the branch office in St.
Cloud. In addition, the OIG interviewed the managing attorney and the staff
attorney for the Willmar branch office, who both split time between the St. Cloud
and Willmar offices.

       During the on-site audit, the OIG interviewed and evaluated
documentation provided by the Executive Director as well as attorneys and
administrators. The OIG evaluated the grantee employees' familiarity with the
guidelines set forth in Part 1610. The audit included an assessment of the
grantee's policies and procedures in meeting the program integrity requirements,
including procedures applicable to the transfer of funds to other organizations.
The audit also included an evaluation of the client intake process. In addition,
the 01G evaluated the grantee's controls for oversight of the Private Attorney
Involvement Program.
       The OIG reviewed a sample of the grantee's case files for each of the
offices and programs to determine if financial, citizenship and other eligibility
requirements were met. The OIG also tested a sample of court cases filed by the
grantee's attorneys to determine if there were any prohibited representations. In
addition, these court cases were traced to Part 1644 Reports (Disclosure of Case
Information) to evaluate compliance with reporting requirements.

       The OIG evaluated all significant agreements (grant funding instruments,
leases and contracts) between the grantee and other organizations and
individuals. This included reviewing documentation and interviewing grantee
management to assess compliance with grant requirements.

        The OIG evaluated accounting policies and procedures, including
allocation of direct and indirect costs to LSC and non-LSC funding sources. The
OIG also evaluated timekeeping procedures, including interviewing employees to
verify compliance. The OIG tested samples of payments to vendors (contractors,
consultants and employees) for both 2001 and 2002.

      The OIG performed the audit in accordance with Government Auditing
Standards established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public
Law 106-553, incorporating by reference Public Law 104-134.



  SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT AND THE
                     OIG'S RESPONSE

       The draft report described measures that the grantee and MMLA have
implemented to ensure the grantee complies with LSC program integrity
regulations. The grantee's response noted additional measures that were not
described in the report.

      The OIG agrees that the measures cited in the grantee's response help
inform the public that the grantee and MMLA are separate organizations. A
description of these measures has been added to the report.

       The grantee described actions taken and planned regarding the issues
with external signs for its Minneapolis office. It stated that the building directory
at the entrance to its building had been changed and that it plans to identify the
separate unmarked external entrance to the office space as a grantee entrance.

     The OIG agrees that the described actions are responsive to our first
recommendation.
        The grantee indicated that it had already taken a measure to address the
issue that the grantee and MMLA offices were not separate from one another.
The grantee stated that it had a large sign clearly identifying grantee office space
within the office suite.

       The OIG did observe the large sign in the corridor where the grantee
offices are located. However, the sign did not distinguish the grantee's offices
from the MMLA offices. As our second recommendation states, the grantee
needs to establish a clear demarcation between the grantee's office space and
MMLA's office space. The grantee should take additional measures to establish
this demarcation as stated in our second recommendation.

        The grantee requested that the OIG delete from the report the statement
that "staff from each office have unfettered access between the two programs."
As rationale for deleting the statement, the response cited the benefits of
coordinating its work with MMLA and the absence of restricted or prohibited
activities in the sample pleadings reviewed.

       The statement in question referred to the unfettered access to offices due
to the physical proximity of both organizations' offices to each other. To clarify,
we deleted the statement and replaced it with the following: "Although the
grantee offices are located along a corridor, there is no physical barrier or clear
demarcation between MMLA offices and grantee offices."
                                                                                                            APPENDIX I



                               September 19,2003



  430 First Avenue North       Leonard J. Koczur
          Suite 359            Acting Inspector General
 Minneapolis, MN 55401
  phone: (612) 332-8151
                               Legal Services Corporation
new clients: (612) 334-5970    3333 K Street NW
    fax: (612) -354-3402       Washington, DC 20007-3522

                               RE: Comments on Draft Report of Audit of Central Minnesota Legal
                                       Services, Inc.

                               Dear Mr. Koczur:
   830 Wesr St. Germain,
          Suite .309
                               Thank you for the opportunity to comment on the draft OIG report. I have the
       P.O.Box 1598            following comments:
   St. Cloud, MN 56302
  phone: (320) 253-01 38
new clients: 1-800-622-7773
                               Phvsical Se~aration
    fax: (320) 253-9208        The draft report describes measures that Central Minnesota Legal Services,
                               h c . (CMLS) and Mid-Minnesota Legal Assistance, Inc. (MMLA), an
                               organization that engages in LSC-restricted activities, have implemented to
                               ensure that CMLS complies with LSC Program Integrity Regulations. In
                               addition to the measures described in your report, it should be noted that
                               CMLS and MMLA have separate letterhead, produce separate newsletters
                               with separate logos for each organization and have separate clearly identifiable
                               program brochures. Samples of program brochures and letterhead for each
 620 Lirchfirld Avcnut SW,     organization were provide to the auditors. These measures also clearly
         Suirr 101A
 Willmar, MN 56-701-j216       differentiate CMLS from MMLA to the public.
   phone: (320) 235-7662
new clients: 1-800-622-101 1   The audit makes the fsllowing observations:
    hx: (320) 235-9476

                                      The building directory at the entrance to the building identifies
                                      the space occupied by the grantee and MMLA as the same suite
                                      number.

                               The building management had already been asked repeatedly to correct this
                               before the audit visit. The building directory at the entrance to our building
                               has been corrected since the audit visit. The directory now correctly identifies
                               CMLS as occupying

                                              "Suite 359" and MMLA as occupying "Suite 300".
Leonard J. Koczur
September 19,2003
Page 2

       The sign on the door to the common waiting area does not separately identify the
       location of the grantee office space.

The sign on the door to the common waiting area clearly identifies that four ~ e g aServices
                                                                                      l
programs occupy "Suite 300 - 359". CMLS is Suite 359. While the number "359" is not directly
beside the name "Central Minnesota Legal Services", Central Minnesota Legal Services is one of
the four programs listed on the sign on the door as an occupant of the office suites.

        Clients are escorted to the grantee office space through a locked door from the
        waiting room, but the sign on the entrance door does not identify the name of the
        grantee organization.

CMLS will identify the separate unmarked external entrance to the office space as the CMLS
entrance.

The draft report does not note that there currently exists a large sign which extends fiom the
ceiling at the entrance to the CMLS offices located together along the corridor of the office suite
that CMLS occupies. The sign clearly notifies the public that they are entering CMLS office
space as they reach the corridor from either the common waiting room or the rear entrance door.

       Grantee offices and MMLS (sic) offices are not separate from one another.
       Although the grantee offices are located together along a corridor, staff from each
       office have unfettered access between the two programs.

As noted above, CMLS does have a large sign clearly identifjmg CMLS office space within the
office suite. We will also improve signage on an external entrance that provides access to our
office space by c!ealy ldentifylng an entrance for CMLS.

In the section of the draft report called "Results of Audit", the report notes

       "We also reviewed a sample of pleadings that have been filed with the courts. There
       were no indications that these cases involved restricted or prohibited activities."

We are pleased that the audit sample showed that CMLS staff are following LSC program
regulations in providing legal services to clients. The "unfettered access between the two
programs" has not impacted the fact that CMLS complies with LSC program regulations in
providing legal services to clients.

The Legal Services Corporation has required its grantees to engage in state planning since 1998
Leonard J. Koczur
September 19,2003
Page 3

and has issued a number of program letters directing grantees to develop systems to ensure that in
each state there is a state wide, integrated, client-centered comprehensive delivery system. LSC
has directed states to work to ensure the availability of equitable legal assistance capacities to
clients-regardless of who the clients are, where they reside or the languages they speak. LSC has
directed that each state system ensure that clients have equitable access to necessary assistance in
all relevant fonuns. Further, LSC has directed that each Legal Services delivery system aspire to
expand access and services to clients through coordination with providers throughout the state.

CMLS and MMLA serve the identical 20 counties in central Mi~eSota.Being co-located means
that clients come to one Legal Services office for a full range of legal services the client may
need. Further, being co-located means that staff from each organization have the ability to draw
on the expertise of staff in the other organization and provide clients with high quality legal
services. CMLS staff are following the LSC regulations in conducting legal work for clients and
as the report notes there were no indications among the sample pleadings reviewed that the cases
involved restricted or prohibited activities. Coordinating our work with MMLA and encouraging
staff to contact their colleagues in other Legal Services programs help CMLS provide quality
legal work for low-income and disadvantaged clients in our service area and is therefore
consistent with LSC's directives regarding integrated comprehensive services with all providers
in a state. For these reasons, CMLS requests that the statement that "staff fiom each office have
unfettered access between the two programs" be deleted fiom the report.

Thank you for the opportunity to reply to the draft report.

Very truly yours, -

CENTRAL MINNESOTA LEGAL SERVICES



can A. Lastine
Executive Director
                                                     APPENDIX II


OIG Staff Responsible for the Audit and the Report


Richard Adkins (Auditor-in-Charge)
Anthony Ramirez
David Gellman
